No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
JIMMY LEE FRANKLIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 7th day of July 2020, in accordance with SUP. CT. R. 29,
eleven copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed
In Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing, were served electronically with the Clerk of the Court using CM/ECF, and
filed by third party commercial carrier for delivery upon Noel Francisco, Solicitor
General of the United States, Room 5614, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
July 7, 2020

By:

s/ Brenda G. Bryn
Brenda G. Bryn
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

